CERTIFICATE OF SERVICE

I,Ricardo Watkins hereby certify that I have served a true and
correct copy of "PETITION FOR A WRIT OF PROHIBITION", to the
following parties to the above entitled action, by placing
Postage,

CLERK OF THE SUPREME COURT
1ST.FIRST STREET,N.E.
WASINGTON D.C. 20543

U.S. SOLICITOR GENERAL
950 PENNSYLVANIA AVENUE N.W.
WASHINGTON, D.C. 20530

U.S. COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
111 SOUTH TENTH STREET, ROOM 24.329
ST,LOUIS MO 63102-1116
and deposited same with prison officials here at the Federal
Correctional institution, La Tuna, P.O.Box 3000,Anthony, NM/TX
88021 on August 21,2020, pursuant to Title 28 United States
Code, Section 1746. I declare under penalty of perjury that the
above is true.

Date August 21,2020.

7““'
Ricardo Watkins
Fed.Reg.#17709424
FCI,LA TUNA
P.0 * BOX 3000
ANTHONY,NM/TX 88021

No.

IN THE
SUPREME COURT OF THE UNITED STATES

RICARDO WATKINS

-PETITIONER

VS.

UNITED STATES OF AMERICA - RESPONDENT(S)
PROOF OF SERVICE

I, RICARDO WATKINS, do swear or.declare that on this date
2020, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF PROHIBITION on each party to the above
proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery
to a third-party commercial carrier for delivery within 3 calendar
days.
___ is and addresses of those served are as foil

qv- u.

S'C
-L - 7jO&O

ert- M^WWA
U&u,vii <Sax9

Iro o—

l>

Ca\ulw\

I declare under penalty of perjury that the foregoing is true and
1 of 2

Executed on

fru6u/\ VY,

2020

(Signature)

2 of 2

